HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services at Robert Wood Johnson University Hospital Rahway,"(A-02-03-01022)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Robert Wood Johnson University Hospital Rahway," (A-02-03-01022)
January 9, 2004
Complete
Text of Report is available in PDF format (609 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed the Robert Wood Johnson University
Hospital Rahway (Hospital) for outpatient cardiac rehabilitation services.  Medical record documentation we examined
showed no evidence that a physician personally sees a patient periodically throughout the program.  In addition, we
reviewed a sample of 10 Medicare beneficiaries who received outpatient cardiac rehabilitation services during calendar
year 2001 totaling $4,205.  We found that medical and billing records provided by the Hospital for eight beneficiaries
receiving cardiac rehabilitation services did not always support services performed.  We recommended that the Hospital
work with the fiscal intermediary to ensure that the Hospital's outpatient cardiac rehabilitation program is being conducted
in accordance with Medicare coverage and billing requirements.